                                                                      Close-Out
                            NATIONAL
                            ~.~~~    SCIENCE FOUNDATiON
                                 4201 WILSON BOULEVARD
                                ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTOR GENERAL
MEMORANDUM

Date:           December 30, 1998

To:

From:                           R i a l Agent, Investigations Section
                                          3n Student Trainee

Through:                        &%l-~~ent-in-charge, Investigations Section

Re:

Background

                                                                     rsement t o Q
                                                                    imbursed for her travel
                                                                      both-t


Investigation




expenses. The vouche

current Director of Current Funds Acc
only reimbursed for part of this trip.

We also reviewed all of                          travel expenses and account summaries
for the past three years.                        that she received duplicate reimbursement
for any other travel, and all of her travel expenses were supported by source
documentation.

Findings                                                    ,   .




The apparent duplicate payment was the result of an error in the amount of
reimbursement originally reported to audit. Review of -travel
vouchers and account summaries has revealed no indications of inappropriate activity. No
further investigation is warranted at this time.

This case is closed.
